      FOLLOW-UP AUDIT ON
 DOT GOVERNMENT TRAVEL CARD
DELINQUENCIES AND CHARGE-OFFS
      Department of Transportation

      Report Number: SC-2004-067
       Date Issued: June 29, 2004
           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Follow-Up Audit of                                        Date:    June 29, 2004
           DOT Government Travel Card Delinquencies
           and Charge-offs
           Report No. SC-2004-067

  From:    Alexis M. Stefani                                                        Reply to
                                                                                    Attn. of:   JA-60
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Assistant Secretary for Budget and Programs
            and Chief Financial Officer
           Assistant Secretary for Administration

           This report presents the results of our follow-up review of the Department of
           Transportation’s (DOT) Government travel card delinquencies and charge-offs.
           The objectives of our review were to determine whether DOT has adequate
           procedures to minimize delinquencies and charge-offs in travel card accounts
           and whether DOT took appropriate actions against employees whose accounts
           were charged off. Charged-off accounts are seriously delinquent accounts
           (over 180 days past due) of employees whose outstanding balances have been
           written off by the bank that issued the travel card. An account is technically
           delinquent if the balance is not paid by the bill’s due date (which is
           approximately 1 month after the billing date). However, Citibank, DOT’s
           travel card service provider, does not consider an account delinquent until
           31 days after the bill’s due date.

           This review follows up on our prior audit report.1 To address delinquencies
           and charge-offs, our prior audit recommended that DOT’s Operating
           Administrations ensure their travel card coordinators notify supervisors of
           employees with delinquent accounts, ensure supervisors take appropriate
           actions against those employees, and use salary offsets and split travel


           1
               OIG Report Number FI-2003-049, “Audit of Use of Government Travel Charge Cards,” August 28, 2003. See
               Exhibit C for prior audit coverage.
                                                                                                         2


reimbursements to the maximum extent possible. DOT concurred with our
recommendations and initiated corrective actions.

RESULTS IN BRIEF
Our review found that DOT revised its policies and procedures in June 2003 to
address travel card problems, but it has yet to see the full impact of these
changes. DOT is making progress in the number of delinquent and charged-off
accounts. However, proper follow-through and implementation of travel card
policies is needed, since delinquencies and charge-offs continue to occur.
Over 38,000 DOT employees have Government travel cards, using them for
about $154 million in purchases per year. The vast majority of DOT
employees use their travel cards appropriately and pay their bills promptly.

We found that DOT is showing improvement because the average number of
delinquent and charged-off accounts per month has decreased since our prior
report. The average number of delinquencies per month decreased from 1,093
(for the period August 2002 through March 2003) to 702 (for the period
August 2003 through March 2004), as shown in Table 1 on page 8. We also
found that the average number of charged-off accounts per month has
decreased following the implementation of the June 2003 revised travel card
policy. The average number of accounts charged off per month has decreased
from 20 (for the 9-month period July 2002 to March 2003) to 10 (for the 9-
month period July 2003 through March 2004), as shown in Table 2 on page 10.

Since our prior report, senior managers in the Office of the Secretary (OST)2
and Operating Administrations have taken the following steps to address travel
card problems.

          • The Operating Administrations have issued their own travel card
            policy and penalty tables similar to or more severe than the sample
            table of penalties issued as part of DOT’s revised June 2003 travel
            card policy.

          • DOT initiated a quarterly reporting system to monitor the Operating
            Administrations’ progress on travel card delinquencies and
            disciplinary actions. The first quarterly report responses from the
            Operating Administrations showed that some Operating
            Administrations, such as the Federal Highway Administration
            (FHWA), the Federal Railroad Administration (FRA), and OST,

2
    The DOT Assistant Secretary for Budget and Programs and Chief Financial Officer, who is responsible for
    DOT’s travel card program, is located in OST.
                                                                                                                  3


                have taken aggressive disciplinary action against employees whose
                accounts were charged off. For example, OST took formal
                disciplinary action against five of the six OST employees whose
                accounts were charged off and is requiring that these employees
                repay the charged-off balance to Citibank in full to avoid more
                severe penalties. The remaining employee’s account activity is
                under review.

           • On April 22, 2004, DOT expanded its second quarterly report
             request to the Operating Administrations to ask for information on
             actions taken against individuals whose accounts are 31 or more
             days past due.

In spite of these efforts, DOT continues to have delinquent and charged-off
accounts. More accounts were 31 or more days past due in March 2004 than in
August 2003, and 72 additional accounts were charged off between August
2003 and March 2004. Exhibit A provides a comparison of the number of
charged-off accounts and dollar amounts for August 2003 and March 2004 by
Operating Administration. We also found that vigorous implementation of the
revised policies and our prior recommendations on this topic has not occurred,
as is shown in the following examples.

           • Although DOT concurred with our August 2003 report
             recommendation to use salary offsets and split travel
             reimbursements to address delinquent and charged-off accounts,
             these measures have not been implemented. DOT plans to
             implement a salary-offset policy in July 2004. FAA is in the process
             of negotiating with the unions regarding their salary-offset policy.
             FAA does not have an anticipated implementation date at this time.
             DOT is also implementing an electronic travel system that will
             include a voluntary split reimbursement feature. DOT officials plan
             to begin implementing the electronic travel system in selected
             Operating Administrations in June 2004.

           • Disciplinary actions against employees who abuse their travel cards
             continue to be inconsistent3 throughout DOT, even though OST

3
    In this report, we use “inconsistent” to mean inconsistent application and enforcement of disciplinary actions
    across and within the Operating Administrations. Each Operating Administration’s table of penalties provides a
    range of disciplinary actions that can be applied for each offense. On a case-by-case basis, there may be a level
    of variation in the disciplinary actions administered depending on other aggravating or mitigating factors (e.g.,
    past work performance, prior disciplinary record, and whether the misconduct is a first offense). However, we
    identified several cases where no disciplinary action was taken on some employees, while other employees with
    the same offense (account charged off) were suspended.
                                                                            4


          issued a revised travel card policy in June 2003 that includes
          disciplinary guidelines.

      • As of December 21, 2003, OST began providing the Operating
        Administrations with quarterly lists of delinquent and charged-off
        accounts and asked the Administrations to respond on the resolutions
        of these accounts. As of March 22, 2004, all Administrations had
        responded. However, one Administration did not provide complete
        information and four Operating Administrations did not fully explain
        why disciplinary action was not taken on some employees with
        delinquent accounts.

We also found that DOT has not taken aggressive steps to address the charged-
off accounts of former DOT employees, including accounts of U.S. Coast
Guard (USCG) and Transportation Security Administration (TSA) employees
who were transferred to the Department of Homeland Security (DHS) in
March 2003. We note that DOT took a positive step in November 2003 by
sending DHS a list of the transferred employees whose accounts had been
charged off. However, DOT should work with DHS to ensure action is taken
to resolve these charged-off accounts. As of March 2004, Citibank had
charged off the accounts of 2,169 USCG and TSA employees, and the balance
due for these accounts was $2.4 million. In addition to the USCG and TSA
employees, another 368 employees have left DOT with outstanding accounts,
and the balance due for these accounts was $961,107.

DOT needs to work with the General Services Administration (GSA) and other
agencies to identify methods to recoup charged-off amounts from former
employees and pursue recoupments, especially for those who are still Federal
employees.

We believe that the implementation of DOT’s recent policy revisions and the
additional actions recommended in this report can be effective in further
minimizing the number of delinquencies and charge-offs. However, DOT
needs to ensure that the Operating Administrations implement the corrective
actions.


Recommendations
To further strengthen the travel card program, we recommend that the
Assistant Secretary for Budget and Programs and Chief Financial Officer and
the Assistant Secretary for Administration, in coordination with the Operating
Administrations:
                                                                                                         5



          • Issue the salary-offset policy and promptly implement the electronic
            travel system with the split travel reimbursement feature to address
            both delinquent and charged-off accounts of current employees.

          • Work with the GSA to identify methods to recoup charged-off
            amounts from former employees, especially those that are still
            Federal employees, and pursue recoupments.

          • Monitor compliance with departmental policy to discipline
            employees who are delinquent in paying their bills or whose
            accounts are charged off.


Management Comments and Office of Inspector General
Response
A draft of this report was provided to DOT on June 3, 2004, and DOT
provided written comments on June 16, 2004. DOT concurred with all the
findings and recommendations. The actions planned and taken are responsive
to our recommendations and, when fully implemented, should reduce the
number of delinquent and charged-off travel card accounts. The complete text
of management’s comments is attached as an appendix to the report.


BACKGROUND
Federal Travel Regulations and Public Law 105-264 require Federal
employees to obtain and use a contractor-issued travel card to pay for all
official travel-related expenses.4 Each employee who applies for and receives
a travel card assumes the responsibility to use the card for official travel
purposes only and to pay the charges in a timely manner.

Citibank, a contractor under the GSA SmartPay Travel Card Program, is
DOT’s service provider for travel cards. Citibank cancels and charges off
seriously delinquent accounts, i.e., those over 180 days past due. As stated in
the November 2003 report “Common Problems and Uncommon Solutions:
How OIGs Are Helping Improve Federal Travel Card Programs” by the
President’s Council on Integrity and Efficiency, “Employees who are unable to
travel because of a loss of a card disrupt agency operations, and employees in
positions of responsibility who have accrued considerable debt are vulnerable
to failing suitability standards….”

4
    Under a September 2002 amendment to the Federal Travel Regulations, employees who travel less than five
    times per year are exempt from mandatory use of the travel card.
                                                                                                             6


DOT has initiated several corrective actions to address problems of travel card
abuse. In June 2003, OST issued policy revisions requiring the Operating
Administrations to monitor for travel card misuse (e.g., review travel card
activity reports and identify personal charges), set stringent limits on cash
withdrawals, and provide guidance on disciplinary actions for abuses
(e.g., tables of penalties).5    To stress the importance of addressing
delinquencies, OST now provides each Operating Administration with
quarterly lists of delinquent employees and requires the Operating
Administrations to notify OST of the resolutions of these accounts. OST
provided the first quarterly lists to the Operating Administrations on
December 21, 2003, and all Operating Administrations responded.


OBJECTIVES, SCOPE, AND METHODOLOGY
The objectives of our audit were to determine whether: (1) DOT has adequate
procedures to minimize travel card delinquencies and charge-offs, and
(2) DOT has taken appropriate action against employees whose accounts have
been charged off.

For this review, we evaluated 37 current and former DOT employees’ accounts
that were delinquent and charged off during the period February 2000 through
March 2004.6 Because the Federal Aviation Administration (FAA) has the
largest workforce in DOT and the largest dollar value of charge-offs, we
judgmentally selected 15 FAA employees with charge-offs for review. We
reviewed all 22 employees in the other Operating Administrations with charge-
offs. Although all employees were reported to be current employees, during
our review we found that three of the selected employees had left DOT. No
current Office of Inspector General (OIG) employees had charged-off accounts
and so were not included in the 22 current employees selected for review.

We reviewed DOT’s and the Operating Administrations’ policies and
procedures governing the travel card program. We also reviewed DOT charge-
off reports provided by Citibank for the period February 2000 through
March 2004 and delinquency reports provided by Citibank for the period
August 2002 through March 2004. We compared the March 2004 DOT
charge-off report with payroll records as of April 3, 2004, to identify the
number of current DOT employees whose accounts were charged off. We also
reviewed the report on Operating Administrations’ responses to DOT’s
December 21, 2003 quarterly report on disciplinary actions taken against
5
    Per the June 2003 policy, the Operating Administrations are not required to follow DOT’s suggested table of
    penalties; they must create their own table of penalties to address travel card abuse.
6
    Our prior audit scope did not include reviewing individual accounts that had been charged off.
                                                                                                             7


employees whose accounts were charged off. We interviewed program
coordinators, supervisors, and human resources officials to determine what
actions were taken to resolve the charge-offs.

OIG auditors performing this audit were not listed in the DOT charge-off and
delinquency reports. However, we noted that three former OIG employees7
were listed in the DOT charge-off reports, and several OIG employees were
listed in the delinquency reports we reviewed. These employees were not
involved, at any time, in the performance, conduct, direction, or management
of this audit.

We performed the audit from November 2003 through April 2004 in
accordance with Government Auditing Standards prescribed by the
Comptroller General of the United States.


RESULTS

DOT Needs To Take Further Action To Address Travel Card
Delinquencies and Charge-offs
In our prior audit, we found that some DOT employees were delinquent in
paying their travel card bills. Some were seriously delinquent (over 180 days
past due), and Citibank charged off their accounts. This review looked at
DOT’s delinquencies and charge-offs and found that DOT is showing
improvement because the average number of delinquent and charged-off
accounts per month has decreased since our prior report. However, travel card
delinquencies and charge-offs continue to occur.

More accounts (82) were 31 or more days past due in March 2004 than in
August 2003. Further, the cumulative total of accounts charged off by
Citibank increased by 72 accounts from 776 accounts valued at $2.8 million in
August 2003 to 848 accounts valued at $3 million in March 2004.8 Exhibit A
provides a comparison of the number of charged-off accounts and dollar
amounts for August 2003 and March 2004 by Operating Administration.



7
    Of the three OIG employees whose accounts were charged off, OIG terminated one, a second was suspended
    for 30 days and later resigned, and a third died and his account balance was subsequently paid.
8
    These charge-offs are cumulative from February 2000, which was the beginning of the contract with Citibank,
    through March 2004. Additionally, both the delinquencies and charge-offs exclude the U.S. Coast Guard and
    Transportation Security Administration employees. These Agencies moved to the Department of Homeland
    Security in 2003.
                                                                          8


The number of delinquent accounts tends to be cyclical, with higher rates
around the December holiday season. Even though the overall delinquency
numbers have increased since our prior report, DOT is showing improvement.
The average number of delinquencies has decreased per month from 1,093 for
August 2002 through March 2003 to 702 for August 2003 through March
2004, as shown in Table 1. DOT also showed an improvement in the number
of delinquent accounts in almost every month-to-month comparison, as shown
in Figure 1.


Table 1. Average Number of Delinquent Accounts for August
    2002 Though March 2003 and August 2003 Through
                      March 2004

                                           August 2002-    August 2003-
                                           March 2003      March 2004

  Number of Months Reviewed                       8               8

  Number of Delinquent Accounts               8,740           5,614

  Average Number of Delinquent Accounts       1,093             702
                                                                                           9




                                       Figure 1. Comparison of Delinquent Accounts for
                                            August 2002 Through March 2003 and
                                             August 2003 Through March 2004
                                1800
Number of Delinquent Accounts




                                1600

                                1400

                                1200

                                1000

                                800

                                600

                                400

                                200

                                  0
                                         Aug   Sep   Oct   Nov  Dec   Jan      Feb   Mar
                                                             Month

                                                       2002-2003   2003-2004




Similarly, even though the cumulative total of charged-off accounts has
increased since our last review, DOT is showing improvement because there
are fewer charged-off accounts in almost every month-to-month comparison
and the average number of charged-off accounts per month has decreased. We
compared charged-off accounts between the 9-month periods before and after
the June 2003 travel card policy was implemented. As is shown in Table 2, the
average number of accounts charged off per month decreased from 20 for July
2002 through March 2003 to 10 for July 2003 through March 2004. Figure 2
provides a month-to-month comparison of charged-off accounts.
                                                                                                     10



Table 2. Average Number of Accounts Charged Off per Month
  for July 2002 Through March 2003 and July 2003 Through
                        March 2004

                                                                           July 2002-       July 2003-
                                                                           March 2003       March 2004

 Number of Months Reviewed                                                        9            9

 Number of Accounts Charged Off                                               180             88

 Average Number of Accounts Charged
 Off per Month                                                                 20             10



                                       Figure 2. Comparison of Accounts Charged Off
                                         for July 2002 Through March 2003 and July
                                                   2003 Through March 2004
 Number of Charged-Off Accounts




                                  35
                                  30
                                  25
                                  20
                                  15
                                  10
                                  5
                                  0
                                         Jul   Aug   Sep     Oct    Nov     Dec       Jan   Feb    Mar
                                                                   Month

                                                           2002-2003         2003-2004
                                                                                                            11



Charged-off Accounts of Current DOT Employees Should Be
Promptly Addressed
From February 2000 through March 2004, Citibank charged off the accounts of
477 current DOT employees,9 and their balance due was $842,488 as of March
2004. These employees’ charged-off accounts initially totaled $1,786,046, but
some employees have since made payments totaling $943,558. Of the 477
current employees, 212 have paid off their travel card balance. Table 3 shows
the number of charged-off accounts and dollar amounts charged off for each
Operating Administration.


         Table 3. Charged-off Accounts of Current Employees
                     by Operating Administration
                  February 2000 Through March 2004
                                         No. of
                                                                                   Amount Due
             Operating                  Accounts            Amount
                                                                                   as of March
           Administrationa/             Charged            Charged Off
                                                                                       2004
                                          Off
               FAA                        427              $1,617,915                  $776,682
               FHWA                        13                  45,809                    25,806
               FRA                         10                  39,406                    19,077
               OST                         10                  41,711                     9,890
               NHTSA                        4                   6,017                         0
               MARAD                        6                   6,465                         0
               FTA                          4                  14,110                    11,033
               FMCSA                        3                   8,662                         0
               RSPA                         3                   5,951                         0
                Total                     480b/            $1,786,046                  $842,488
          a/
               See Exhibit B for a list of abbreviations.
          b/
               Three of the 477 current employees had duplicate accounts, therefore a total of 480 accounts were
               charged off.



As of October 31, 2003, DOT officials compiled their own list of current DOT
employees. DOT’s list showed 285 current DOT employees whose accounts
had been charged off. DOT sent this list to the Operating Administrations with
the December 21, 2003 quarterly report, asking them to report on disciplinary

9
    The March 2004 Citibank charge-off report showed a total of 848 current and former DOT employee accounts
    charged off. (This figure does not include the U.S. Coast Guard and the Transportation Security
    Administration.) DOT payroll records show that 477 of the 848 employees on the March 2004 DOT charge-off
    report are still current DOT employees.
                                                                                                            12


actions taken. However, DOT has not reconciled this information with
Citibank, so Citibank’s information on employees who have been terminated,
have retired, or have left DOT is not up to date. DOT officials are working to
confirm the actual number of current DOT employees whose accounts were
charged off.10 DOT needs to promptly complete its work on identifying
current DOT employees whose accounts were charged off and reconcile its
records with Citibank.

The Travel and Transportation Reform Act of 1998 allows Federal agencies to
deduct from an employee’s pay the amount of delinquent funds (which
includes amounts charged off) that the employee owes on his or her travel card.
These deductions are called “salary offsets.” In previous guidance from
OST,11 the Operating Administrations were given authority to implement
salary offsets on a voluntary basis. Our prior audit found that only the USCG
used salary offsets to address delinquencies and charge-offs. USCG has since
been transferred to DHS.
Our current review disclosed that no DOT Operating Administration is using
the salary-offset technique. At the end of our prior audit, DOT officials stated
that salary offsets would begin in September 2003. During this review, DOT
officials explained that they delayed issuing a salary-offset policy to recover
charged-off amounts because they wanted to issue this policy in conjunction
with DOT’s new payroll system. However, since the implementation of the
new payroll system has been delayed, DOT officials now plan to issue a
revised travel card policy in July 2004 that will include the salary-offset policy.
FAA is in the process of negotiating with the unions regarding their salary-
offset policy. FAA does not have an anticipated implementation date at this
time.

DOT should aggressively use salary offsets to address the charged-off accounts
of current employees. We recognize that some employees are making
payments on these accounts. For example, an FAA employee’s original
charged-off amount was $11,234. This employee has since paid the balance
down to $3,145. We believe the salary-offset technique is more efficient than
voluntary payments, however, because departmental officials do not have to
confirm periodically that the employees are indeed making payments.


10
     In February 2004, DOT provided the January 2004 Citibank charge-off report to the Operating Administrations
     and asked them to identify employees within their Administrations who were no longer employed by DOT.
     The report listed all DOT employees whose accounts had been charged off since February 2000, when Citibank
     first became DOT’s travel card service provider. As of April 2004, DOT was still working with the Operating
     Administrations to determine the actual number of current DOT employees whose accounts had been charged
     off. DOT plans to forward the completed information to Citibank so that Citibank can update its records.
11
     March 26, 2002 Travel Card Policy.
                                                                                                            13


However, until salary offsets are implemented, Operating Administrations
should require current employees to make payments directly to Citibank.12

DOT needs to promptly complete its work on identifying the actual number of
current DOT employees whose accounts have been charged off and inform the
Operating Administrations of any additional names of current employees it
identifies. DOT also needs to reconcile its records with Citibank so that
current employees can begin making payments and appropriate measures can
be taken to address former employees.


Charged-off Accounts of Former Employees Are Not Addressed
OST and the Operating Administrations have not taken aggressive actions to
address delinquencies and charge-offs of former DOT employees, including
accounts of USCG and TSA employees who were transferred to DHS in March
2003. As of March 2004, Citibank had charged off the accounts of 2,169
USCG and TSA employees, and the balance due for these accounts was
$2.4 million.

We note that DOT took a positive step in November 2003 by sending DHS a
list of USCG and TSA employees whose accounts had been charged off.
However, DOT should work with DHS to ensure action is taken to resolve
these charged-off accounts.

In addition to USCG and TSA employees, another 368 employees have left
DOT since February 2000 with outstanding accounts that were charged off in
the amount of $1,256,001. These employees have since paid the balance down
to $961,107. DOT needs to follow up and identify ways to recoup charged-off
amounts of former DOT employees. For example, if an employee retired
without paying his or her travel card bill, DOT should examine the possibility
of deducting the charged-off amount from future retirement payments.

DOT needs to work with the GSA and other agencies to identify methods to
recoup charged-off amounts from former employees and pursue recoupments,
especially from those who are still Federal employees.




12
     There are two circumstances under which Citibank cannot accept payments on charged-off accounts: (1) the
     account was included in a bankruptcy filing, and (2) the account holder entered into a settlement agreement
     with a collections agency that allowed the individual to pay an amount less than the full amount owed to
     Citibank. In the second circumstance, if the amount forgiven is greater than $600, Citibank will issue a
     Form 1099C, “Cancellation of Debt,” to the account holder and then write off the amount as a loss. Once the
     1099C is issued, Citibank no longer has collection rights.
                                                                              14



Split Travel Reimbursements Should Be Implemented for
Delinquent Employees
Currently, no Operating Administration uses the split reimbursement technique
to address delinquencies. OST is in the process of implementing a new
electronic travel system, and split reimbursements will be a part of this system.
DOT began a phased implementation of the system in June 2004.

In a split travel reimbursement, an employee with a delinquent account agrees
to have part of his or her travel voucher reimbursement sent directly to
Citibank to pay the travel card charges included in that voucher. Under this
method, the employee retains use of the travel card but does not go further into
debt with Citibank. Our prior audit found that USCG was the only Operating
Administration using this technique.

Tables 4 and 5 provide comparisons by Operating Administration of the
number of delinquencies and dollar amounts of delinquencies for accounts that
are 31 or more days and 61 or more days past due. The average number of
delinquencies per month has decreased since August 2003, but these tables
show that delinquencies continued to occur. We provide both the 31 or more
and 61 or more days past due numbers to emphasize the need to continuously
monitor travel card delinquencies. Accounts that reach 61 or more days past
due should be promptly addressed to prevent the delinquencies from reaching
180 days past due and, consequently, being charged off by Citibank.
                                                                                                              15




     Table 4. Number of Delinquent Accounts by Operating
          Administration, August 2003 and March 2004
  Operating
Administration                       August 2003                                      March 2004
        a/,b/

                    31+ Days Past Duec/ 61+ Days Past Due d/ 31+ Days Past Duec/ 61+ Days Past Due d/
     FAA                   434                  110                 521                  118
     FHWA                    30                   9                  18                    3
     RSPA                    11                   1                  10                    0
     MARAD                    9                   0                    7                   2
     OST                      3                   0                  10                    3
     NHTSA                    4                   1                    2                   2
     BTS                      0                   0                    1                   1
     FRA                      4                   1                  11                    1
     FMCSA                    6                   3                    2                   0
     OIG                      1                   0                    2                   1
     FTA                      1                   0                    1                   0
       Total                  503                      125                     585                      131
a/
     See Exhibit B for a list of abbreviations.
b/
     These delinquencies exclude the U.S. Coast Guard and Transportation Security Administration employees.
     These agencies moved to the Department of Homeland Security in 2003.
c/
     In this report, “31 or more days past due” means that the employee has not paid the bill 31 days after the
     bill’s due date, which is approximately 1 month after the employee receives the credit card bill for payment.
d/
     All accounts shown in this column are also included in the 31+ days past due column.
                                                                                                     16



            Table 5. Dollar Amount Delinquent by Operating
             Administration, August 2003 and March 2004
    Operating
                                      August 2003                                    March 2004
  Administrationa/
                      31+ Days Past Due 61+ Days Past Due 31+ Days Past Due 61+ Days Past Due b/
                                                                  b/

      FAA               $510,780             $199,705         $477,014            $171,891
      FHWA                34,877               14,461           15,214               4,420
      RSPA                17,155                2,199            6,738                   0
      MARAD                6,009                    0            7,800               2,806
      OST                  4,164                    0            7,596               3,553
      NHTSA                2,157                  580              242                 176
      BTS                      0                    0            1,463               1,463
      FRA                  3,992                  111            2,462                  19
      FMCSA                7,593                2,791              149                   0
      OIG                     20                    0              559                 550
      FTA                    162                    0               64                   0
        Total             $586,909                 $219,847               $519,301            $184,878
 a/
      See Exhibit B for a list of abbreviations.
 b/
      All amounts shown in this column are also included in the 31+ days past due column.



At the conclusion of our prior audit, OST officials stated that they were
automating the travel voucher process, which would facilitate use of split travel
reimbursements, and that they planned to start using split travel
reimbursements by December 2003. DOT officials explained that DOT is in
the process of implementing a new electronic travel system, and voluntary split
reimbursements will be a feature of this system. DOT began implementation
of the electronic travel system implementation in June 2004. DOT plans to
start implementation with FAA and two other Operating Administrations.

DOT should aggressively address delinquencies by using split travel
reimbursements. Given the history of these employees, such actions are
appropriate and provide an added measure of protection by limiting the amount
of future debt accrued and later charged off.


Disciplinary Actions Are Still Inconsistent
We reviewed the Operating Administrations’ actions against employees with
accounts that were charged off.           We found that some Operating
Administrations had not taken any disciplinary actions, and when they did, the
actions were inconsistent across and within the Operating Administrations.
                                                                                                          17


Of the 37 current employees we reviewed with charged-off accounts,
disciplinary actions were taken against only 21. Table 6 shows the disciplinary
actions taken, which ranged from oral reprimand to termination.


 Table 6. Disciplinary Actions Against 21 Employees Whose
                 Accounts Were Charged Off
                                                        Number of               Amount
              Disciplinary Action                       Employees             Charged Off
            Oral Reprimand                                  8                   $31,760
            Suspension (3 to 14 days)                       9                    62,735
            Downgrade                                       2                    26,362
            Termination                                     2                     8,485
             Total                                         21                  $129,342


The Operating Administrations provided various reasons why no disciplinary
actions were taken against the remaining 16 employees. Table 7 shows the
reasons given.


 Table 7. Reasons Why No Disciplinary Actions Were Taken
 Against 16 Employees Whose Accounts Were Charged Off
         Reason Why No Disciplinary                       Number of            Amount Charged
                  Action Taken                            Employees                 Off
        Prior Policya/                                         8                  $60,313
        Activity Under Reviewb/                                5                   58,794
        Employee Subsequently Left DOT                         3                   19,681
         Total                                               16                  $138,788
   a/
        The charge-offs occurred under a prior DOT policy (September 1998) that placed responsibility on the
        cardholder and Citibank to resolve travel card problems. The policy discouraged DOT from
        monitoring employees’ travel card activity.
   b/
        Officials were reviewing the employees’ travel card accounts before determining what type of
        disciplinary action would be taken.


The Operating Administrations were inconsistent in their treatment of charge-
offs that occurred under the prior DOT policy. For example, four FAA
employees were not disciplined because their charge-offs occurred under a
                                                                                                               18


prior policy.13 The accounts were charged off for a total of $55,008, and no
payments have been made on the accounts. In contrast, other Operating
Administrations, such as the FHWA, FRA, and OST, have taken disciplinary
action against employees whose accounts were charged off as early as April
2000, when the prior policy was in effect. For example, FRA suspended an
employee in November 2002 for a $3,328 charge-off that occurred in April
2000. This employee has since paid off the balance.

We also found inconsistencies within an Operating Administration in its
application of disciplinary actions for charge-offs. We reviewed FAA’s
response to DOT’s December 21, 2003 quarterly report and found that FAA
did not discipline 12 employees whose accounts were charged off in the
amount of $51,734 between February 2000 and February 2001. FAA’s
response stated that the accounts were charged off prior to its being instructed
to monitor Citibank’s accounts, so no action would be taken against these
employees. The current balance of these employees’ accounts is $10,874.
However, FAA did take disciplinary action against 15 other employees whose
charge-offs occurred during the same period. Inconsistencies remained even
after OST issued a more comprehensive DOT travel card policy in June 2003
requiring the Operating Administrations to monitor delinquencies. Since the
June 2003 guidance, another 16 FAA employees have had their accounts
charged off. FAA’s response to DOT’s December 21, 2003 quarterly report
showed that FAA has disciplined only 4 of these 16 employees.

The Operating Administrations have issued their own policy and penalty tables
that are similar to or more severe than the sample table of penalties included in
DOT’s revised June 2003 travel card policy. However, while these policies
provide disciplinary actions for delinquencies (most of the policies state that an
employee is subject to disciplinary action if an outstanding travel charge card
balance is 60 days or more past due), the policies do not provide specific
disciplinary actions for charge-offs. The prior March 2002 DOT travel card
policy also did not provide for specific disciplinary actions for charged-off
accounts. DOT and the Operating Administrations should ensure their policies
address disciplinary actions for charged-off accounts.

Although all Operating Administrations have penalties for delinquencies, we
found that the Operating Administrations are not fully enforcing the penalties.
13
     DOT’s September 1998 policy placed responsibility on the cardholder and Citibank to resolve travel card
     problems. This policy also discouraged DOT from monitoring employees’ travel-card activity. However, this
     policy did not prohibit Operating Administrations from taking disciplinary action based on travel card-related
     misconduct once the misconduct became known, nor did the policy imply that it was acceptable for employees
     not to pay their bills. In March 2002, DOT issued another policy that stated that Operating Administrations
     were responsible for monitoring Citibank’s monthly delinquency reports and notifying managers of appropriate
     problems. The 2002 policy was superseded by a more comprehensive policy in 2003.
                                                                              19


As noted above, we found that some Operating Administrations were
considering any charge-offs that occurred under the prior policy (pre-March
2002) as “old,” so they did not apply disciplinary action even if an account
balance still remained. In contrast, other Operating Administrations were
applying disciplinary action no matter when the charge-off occurred or what
the current balance. We note that DOT’s June 2003 travel card policy and all
of the Operating Administrations’ travel card policies do not prohibit
disciplinary action if a charge-off occurred under a prior policy. In fact,
DOT’s June 2003 policy states that any violation of the Cardholder Agreement,
including delinquency (60 days or more past due), will subject the card holder
to disciplinary action.

In our opinion, disciplinary action is warranted whenever an employee’s
account has been charged off, no matter when the charge-off occurred and
especially if there is still an outstanding account balance. In addition, all
current DOT employees with outstanding charge-off balances should be
required to pay the balance either through payments directly to Citibank or by
salary offset, unless the balance was included in a bankruptcy or a settlement
agreement with a collection agency.


Actions Taken by DOT
In its August 11, 2003 response to our prior audit report, DOT stated that it had
initiated action to ensure Operating Administrations comply with DOT policy
regarding delinquencies and that the Operating Administrations would submit
quarterly reports for review by OST. However, OST did not request the
quarterly reports until December 21, 2003. With the request, OST provided
each of the Operating Administrations: (1) a list of employees whose accounts
were 61 or more days past due, and (2) a list of 285 employees (264 FAA and
21 from the other Operating Administrations) whose accounts had been
charged off as of October 31, 2003. OST asked the Operating Administrations
to indicate the disciplinary actions taken against these employees. As of
March 22, 2004, all Operating Administrations had responded. However, FAA
did not provide complete information, and four of the Operating
Administrations did not fully explain why no disciplinary action was taken
against some employees with delinquent accounts.

We reviewed the Operating Administrations’ responses to DOT’s
December 21, 2003 quarterly report for the 285 employees with charged-off
accounts. The responses showed that Operating Administration officials took
disciplinary actions against only 65 (23 percent) of the 285 employees whose
accounts were charged off. The responses showed that no disciplinary action
                                                                                                                20


was taken against 104 employees (the Operating Administrations provided
reasons for not taking disciplinary actions for 93 of these employees). The
Operating Administrations did not provide any information on the disposition
of the remaining 116 employees.14 Table 8 summarizes the Operating
Administration responses to the December 21, 2003 quarterly report and shows
dollar amounts charged off.


 Table 8. Summary of Responses to DOT’s December 2003
Report Regarding 285 DOT Employees Whose Accounts Were
                       Charged Off
 Operating Administration                      Number of              Amount                    Amount Due
        Responses                              Employees             Charged Off                as of March
                                                                                                    2004
Disciplinary Action Taken                              65                $276,850                $163,733
No Disciplinary Action                                 93                 375,285                 181,744
Taken—Reasons Provided
No Disciplinary Action                                 11                    75,279                  38,886
Taken—No Reasons
Provided
No Information Provided                              116                 464,042                   261,084
   Total                                             285              $1,191,456                  $645,447


Table 9 shows the disciplinary actions taken for the 65 employees, which
ranged from counseling to termination.




14
     There is at least one travel card coordinator in each Operating Administration who monitors travel card activity
     for that Administration. For the employees where no response was provided, the travel card coordinator either
     did not provide any information on the disposition of the employee, indicated that the employee and/or the
     employee’s supervisor had not responded to the request, or reported that the employee was not in his or her
     assigned area but did not provide any information on where the employee was currently located.
                                                                                                  21




  Table 9. Summary of Responses to DOT’s December 2003
 Report Regarding Disciplinary Actions Taken Against 65 DOT
        Employees Whose Accounts Were Charged Off
     Disciplinary Action            Number            Amount Charged             Amount Due as
                                      of                   Off                   of March 2004
                                   Employees
Employee Counseling                   36                  $118,324                    $63,526
Letter of Reprimand                   13                    46,044                     16,356
Suspension                            12                    78,143                     62,857
Downgrade                              2                    26,362                     20,994
Termination                             1                    4,873                          0
No Specific Action                     1                     3,104                          0
Given
 Total                                    65              $276,850                  $163,733


Table 10 shows the reasons given why disciplinary actions were not taken for
93 employees whose accounts were charged off.


     Table 10. Reasons Why No Disciplinary Actions Were Taken
         Against 93 DOT Employees Whose Accounts Were
                          Charged Off
      Reason Why No Disciplinary                  Number of           Amount           Amount Due
      Action Taken (as reported by                Employees          Charged-          as of March
        Operating Administration)                                       Off                2004
Activity Under Reviewa/                                18            $120,168           $95,409
Employee Left DOT                                      15              50,119             29,375
Prior Policyb/                                         16              66,342             20,769
Plan To Discuss with or Counsel                        17              74,549             28,964
Employee
Otherc/                                                27              64,106               7,227
 Total                                                 93            $375,284            $181,744
a/
      This includes management investigating the charges or discussing the specific disciplinary action to
      take.
b/
      The account was charged off prior to the Operating Administrations being instructed to monitor
      employees’ travel card activity so no disciplinary action was taken.
c/
      These reasons included the employee had a zero balance, was on a payment plan with Citibank, had
      paid a collection agency, or had a family emergency.
                                                                                22


DOT sent out its second request to the Operating Administrations for quarterly
reports on April 22, 2004. This request asked for information about employees
whose accounts were 31 or more days past due. DOT should review the
quarterly responses from the Operating Administrations to ensure that
delinquent and charged-off accounts are resolved and that appropriate
disciplinary actions, according to the tables of penalties, are being taken
against employees with these accounts. The key to correcting travel card
problems is to follow through and ensure that the Operating Administrations
take corrective actions.

Citibank has recently taken action to control delinquencies and limit charge-
offs. On April 7, 2004, Citibank implemented an automated program that will
cancel an account that has been suspended twice within a 12-month period and
then becomes past due again. While Citibank has been able to cancel accounts
for this reason in the past, this program will be able to readily identify accounts
that meet this criterion and promptly cancel them before further debt is
incurred.

RECOMMENDATIONS
1. The Assistant Secretary for Budget and Programs and Chief Financial
   Officer and the Assistant Secretary for Administration, in coordination with
   the Operating Administrations, should continue actions to promptly
   implement:

   a. Salary offsets to address and resolve charged-off accounts for all current
      DOT employees. Until salary offsets are implemented, employees
      should be required to pay charged-off balances directly to Citibank.

   b. Split travel reimbursements to address delinquent accounts.

2. The Assistant Secretary for Budget and Programs and Chief Financial
   Officer and the Assistant Secretary for Administration, in coordination with
   the Operating Administrations, should:

   a. Complete the work started on identifying current DOT employees
      whose accounts were charged off, notify the Operating Administrations
      of any additional current employees identified, and reconcile the records
      with Citibank.

   b. Work with the GSA to identify methods to recoup charged-off amounts
      from former employees and pursue recoupments, especially from those
      who are still Federal employees.
                                                                             23


   c. Follow up with the Operating Administrations to ensure they comply
      with departmental policy to discipline employees who are delinquent in
      paying their bills or whose accounts are charged off.


MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
A draft of this report was provided to the Assistant Secretary for Budget and
Programs and Chief Financial Officer on June 3, 2004. The Assistant
Secretary for Budget and Programs and Chief Financial Officer responded on
June 16, 2004, concurring with all our findings and recommendations. (See
the appendix to this report for the complete text of the Assistant Secretary for
Budget and Programs and Chief Financial Officer’s comments.) The actions
planned are responsive to our recommendations.

Recommendation 1a. Concur. DOT plans to issue a Departmental policy on
salary offsets this fiscal year which will apply to all DOT organizations. In
addition, with a sizable proportion of DOT’s charge-offs occurring at FAA,
DOT will continue to work closely with FAA to accomplish the steps
necessary to implement salary offsets. Since initiating a salary-offset action
requires the card-issuing bank to request such action, DOT has completed
initial discussion with Citibank. DOT plans to enter into and complete final
negotiations with Citibank before the end of the calendar year regarding the
administrative and legal actions necessary to initiate salary offsets.

Recommendation 1b. Concur. DOT will select an electronic travel vendor
in June 2004 and intends to move out aggressively on implementing split travel
disbursements as part of the integrated electronic travel service. DOT intends
to begin implementation before the end of fiscal year 2004.

Recommendation 2a. Concur. DOT will continue to actively monitor
monthly charge-off reports and will disseminate the list of names to the
Operating Administrations. Corresponding disciplinary actions will also be
required and tracked.

Recommendation 2b. Concur. DOT agrees that Federal agencies should
work together in a more coordinated fashion to track individuals who have had
their accounts charged off. DOT intends to initiate action on this matter by
sending a memorandum by July 15 to the GSA requesting that a plan for
collaboration be developed.
                                                                          24


Recommendation 2c. Concur. DOT will continue to work closely with the
Operating Administrations and the human resources community to monitor
compliance with the requirement to take appropriate corrective action against
employees who abuse their travel charge cards. DOT will continue to pursue
monthly feedback from the Operating Administrations and will require that
disciplinary action be reported on a quarterly basis.


ACTION REQUIRED
The actions taken and planned by DOT are reasonable. Therefore, we consider
Recommendation 2c closed and the remaining recommendations resolved,
subject to follow-up requirements in DOT Order 8000.1C.

We appreciate the courtesies and cooperation of Department of Transportation
representatives during this audit. If you have any questions concerning this
report, please call me at (202) 366-1992 or Robin K. Hunt, Deputy Assistant
Inspector General for Hazardous Materials, Security and Special Programs, at
(415) 744-0420.

                                     #
                                                                                     25




EXHIBIT A. CHARGED-OFF ACCOUNTS—AUGUST
2003 AND MARCH 2004

                  Charged-Off Accounts as of August 2003
       Operating                     No. of            Amount       Amount Due as
     Administrationa/               Accounts          Charged Off   of August 2003
                                   Charged Off
          FAA                          620            $2,247,142     $1,354,508
          FHWA                          32               150,950        133,201
          OST                           27               112,401         80,025
          FRA                           33               112,515         89,670
          FMCSA                         25                48,218         38,727
          NHTSA                          8                38,802         22,831
          FTA                            8                33,697         21,240
          OIG                            3                25,949         21,785
          MARAD                         11                28,793         18,545
          RSPA                           8                14,480          6,277
          STB                            1                 2,039              0
           Total                       776            $2,814,986     $1,786,809
     a/
          See Exhibit B for list of abbreviations.



                   Charged-Off Accounts as of March 2004
       Operating                     No. of            Amount       Amount Due as
     Administrationa/               Accounts          Charged Off   of March 2004
                                   Charged Off
          FAA                          679            $2,450,418     $1,394,981
          FHWA                          39               160,360        130,211
          OST                           27               112,401         65,797
          FRA                           34               112,713         84,005
          FMCSA                         28                51,197         33,404
          NHTSA                          8                38,802         22,709
          FTA                            8                33,697         17,328
          OIG                            3                25,949         21,785
          MARAD                         12                31,547         18,545
          RSPA                           9                22,926         14,829
          STB                            1                 2,039              0
            Total                        848          $3,042,049     $1,803,594
     a/
           See Exhibit B for list of abbreviations.


Exhibit A. Charged- off Accounts— August 2003 and March 2004
                                                                   26




EXHIBIT B. LIST OF DOT ABBREVIATIONS

     BTS         Bureau of Transportation Statistics

     FAA         Federal Aviation Administration

     FHWA        Federal Highway Administration

     FMCSA       Federal Motor Carrier Safety Administration

     FRA         Federal Railroad Administration

     FTA         Federal Transit Administration

     MARAD       Maritime Administration

     NHTSA       National Highway Traffic Safety Administration

     OIG         Office of Inspector General

     OST         Office of the Secretary of Transportation

     RSPA        Research and Special Programs Administration

     STB         Surface Transportation Board

     TSA         Transportation Security Administration (moved to the
                 Department of Homeland Security in March 2003)

     USCG        United States Coast Guard (moved to the Department of
                 Homeland Security in March 2003)




Exhibit B. List of DOT Abbrevi ations
                                                                                    27




EXHIBIT C. PRIOR AUDIT COVERAGE
OIG Audit Report Number FI-2003-049, “Audit of Use of
Government Travel Charge Cards,” August 28, 2003
While most DOT employees do not abuse their travel card privileges, we
identified 96 employees who did abuse these privileges by charging personal
purchases ($407,000), withdrawing cash in excess of travel needs ($361,000), or
not paying their bills on time (22 employees). In response to our audit, DOT
revised its travel card policy and initiated other corrective actions to address travel
card abuses.       To build on these initiatives and strengthen controls, we
recommended that DOT use data-mining tools to identify abuses, block additional
merchant categories from travel card use, implement salary offsets and split travel
reimbursements for employees who are delinquent in paying their travel bills, and
take appropriate actions with the employees who abused their travel cards. DOT
agreed with our recommendations and initiated corrective actions, including
issuing the June 2003 policy requiring the Operating Administrations to monitor
for travel card misuse, blocking specific categories of inappropriate merchants,
and initiating the quarterly report system that provides each Operating
Administration quarterly lists of their delinquent employees and requires the
Operating Administrations to notify OST of the resolutions of these accounts.




Exhibit C. Pri or Audit Coverage
                                                              28




EXHIBIT D. MAJOR CONTRIBUTORS TO THIS
REPORT


THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                                  Title

  Glenn Griser                          Program Director

  Leroy Davis                           Project Manager

  Stephen Jones                         Senior Auditor

  Kari Beitel                           Senior Analyst

  Kathleen Huycke                       Editor

  Petra Swartzlander                    Senior Statistician




Exhibit D. Major Contributors to This Report
APPENDIX. MANAGEMENT COMMENTS                                                                  29




                                         June 16, 2004




MEMORANDUM TO:                Alexis Stefani
                              Principal Assistant Inspector General
                               for Auditing and Evaluation

FROM:                         Linda M. Combs

SUBJECT:                      Report on “Follow-Up Audit of DOT Government Travel
                              Card Delinquencies and Charge-offs”


This is in response to the draft report entitled, “Follow-up Audit on DOT Government
Travel Card Delinquencies and Charge-offs”. As noted in your report, the Department
has taken a number of aggressive strides over the past year which resulted in what can
truly be considered a cultural change across the Department. With delinquency rates in
recent years approaching highs of nearly 13 percent, our travel card program has evolved
into what the Office of Management and Budget (OMB) and the General Services
Administration (GSA) now refer to as a “model program,” with delinquency rates
averaging 3 percent.

Despite our headway, we remain mindful of the fact that this is an issue that requires
continuous diligence and oversight. We appreciate your insights and recommendations
and look forward to working with your staff to further strengthen our management of this
program in the months ahead.

We reviewed the report’s recommendations and offer the following comments:

Recommendation 1a: Continue actions to promptly implement salary offsets to address
and resolve charged-off accounts for all current DOT employees. Until salary offsets are
implemented, employees should be required to pay their charged-off balance directly to
Citibank.

Response: Concur: A Departmental policy on salary offset will be issued this fiscal
year which will apply to all DOT organizations. In addition, with a sizable proportion of
the Department’s charge-offs occurring at FAA, we will continue to work closely with
FAA to accomplish the steps necessary to implement salary offsets. This will include the
need for FAA to issue a corresponding agency policy for salary offsets, and reach
agreement with its labor unions for using salary offsets to address travel card charge offs.
Since initiating a salary offset action requires the card issuing bank to request such
                                                                                            30


action, we have completed initial discussion with Citibank regarding the administrative
and legal actions necessary to achieve this objective. We plan to enter into and complete
final negotiations with the Bank before the end of the calendar year. Finally, we will
continue to follow-up on other departmental policies aimed at encouraging employees to
repay charged off balances, including monthly reporting and follow-up on
delinquency/disciplinary actions taken by modal administrations, and working with them
to ensure appropriate actions are taken.

Recommendation 1b: Continue actions to promptly implement split travel
reimbursements to address delinquent accounts.

Response: Concur: An e-travel vendor will be selected by the DOT in June of 2004 and
we intend to move out aggressively on implementing split disbursement as part of the
integrated e-travel service. Significant preliminary work is already underway with both
travel card providers and our Delphi interface managers in Oklahoma City so that split
disbursement is deployed simultaneously with e-travel. It is our intent to begin
implementation before the end of FY 04.

Recommendation 2a: Complete the work started on identifying current DOT employees
whose accounts were charged off, notify the operating administrations of any additional
current employees identified, and reconcile the records with Citibank.

Response: Concur: We will continue to actively monitor monthly charge-off reports
and will disseminate list of names to our Operating Administrations. Corresponding
disciplinary actions will also be required and tracked.

Recommendation 2b: Work with the General Services Administration to identify
methods to recoup charged-off amounts from former employees and pursue recoupments,
especially for those who are still Federal employees.

Response: Concur: We agree that federal agencies should work together in a more
coordinated fashion to track individuals who have had their accounts charged-off. I
intend to initiate action on this matter by sending a memorandum by July 15 to the
General Services Administration requesting that a plan for collaboration be undertaken.
DOT would welcome the opportunity to participate in such a government-wide activity.

Recommendation 2c: Follow up with the operating administrations to ensure they
comply with Departmental policy to discipline employees who are delinquent in paying
their bills or whose accounts are charged off.

Response: Concur: We will continue working closely with the Operating
Administrations and the Human Resources community to monitor compliance with the
requirement to take appropriate corrective action against employees who abuse their
travel charge cards. We will continue to pursue monthly feedback from OAs and will
require that disciplinary action be reported on a quarterly basis.


                                              2

Appendix. Management Comments
